     AUDIT REPORT

  COSTS CLAIMED BY THE
    TENNESSEE WILDLIFE
    RESOURCES AGENCY,
UNDER FEDERAL ASSISTANCE
     GRANTS FROM THE
   U.S. FISH AND WILDLIFE
 SERVICE FROM JULY 1, 2000,
        TO JUNE 30, 2002




      Report No. R-GR-FWS-0027-2003
                     JANUARY 2004
                United States Department of the Interior
                          OFFICE OF INSPECTOR GENERAL
                                   External Audits Division
                             12030 Sunrise Valley Drive, Suite 230
                                      Reston, VA 20191

                                                                                  January 8, 2004

                                    AUDIT REPORT
Memorandum

To:            Director,
               U.S. Fish and Wildlife Service

From:          Joe Ansnick
               Director of External Audits

Subject:       Final Audit Report on Costs Claimed by the Tennessee Wildlife Resources
               Agency, under Federal Assistance Grants from the U.S. Fish and Wildlife Service
               from July 1, 2000, to June 30, 2002 (No. R-GR-FWS-0027-2003)

                                        Introduction
       This report presents the results of our audit of costs claimed by the Tennessee Wildlife
Resources Agency (Agency) under Federal Assistance grants from the U.S. Fish and Wildlife
Service (FWS) for the period July 1, 2000, to June 30, 2002.

Background and Scope
        The Pittman-Robertson Wildlife Restoration Act, as amended (16 U.S.C. 669) and the
Dingell-Johnson Sport Fish Restoration Act, as amended (16 U.S.C. 777) (the Acts), authorize
FWS to provide Federal Assistance grants to states to enhance their sport fish and wildlife
programs. The Acts provide for FWS to reimburse the states up to 75 percent of the eligible
costs incurred under the grants. The Acts specify that state hunting and fishing license revenues
cannot be used for any purpose other than the administration of the state’s fish and game
agencies.

         As requested by FWS, we have performed a financial and compliance audit of Federal
Assistance grants to the State of Tennessee. The objective of our audit was to evaluate: (1) the
adequacy of the Agency’s accounting system and related internal controls; (2) the accuracy and
eligibility of the direct and indirect costs claimed under the Federal Assistance grant agreements
with FWS; (3) the adequacy and reliability of the Agency’s hunting and fishing license fees
collection, certification, and disbursement process; and (4) the adequacy of the Agency’s asset
management system and related internal controls with regard to purchasing, maintenance, control
and disposal; and (5) the adequacy of the State’s compliance with the Acts’ assent legislation
requirements. The audit was also to include an analysis of other issues considered sensitive
and/or significant by FWS. The audit work at the Agency covered claims totaling approximately
$40 million on FWS grants that began after June 30, 2000, and were open during the State’s
fiscal years ended June 30, 2001 and 2002 (see Appendix 1).

        Our audit was performed in accordance with the government auditing standards issued by
the Comptroller General of the United States. Accordingly, we included such tests of records
and other auditing procedures that were considered necessary under the circumstances. Our tests
included an examination of evidence supporting selected expenditures charged by Agency to the
grants; interviews with employees to ensure that all personnel costs charged to the grants were
supportable; and a review of Agency's use of fishing and hunting license revenues to determine
whether the revenues had been used for program purposes. We did not evaluate the economy,
efficiency, and effectiveness of Agency’s operations.

       Our audit was performed at Tennessee Wildlife Resources Agency headquarters in
Nashville, Tennessee. We also conducted work at several wildlife management areas,
hatcheries, and marinas (see Appendix 4).

Prior Audit Coverage
        On March 31, 1998, we issued audit report No. 98-E-390, “Audit of U.S. Fish and
Wildlife Service Federal Aid Grants to the State of Tennessee for Fiscal Years Ended June 30,
1994 and 1995.” The State of Tennessee, Division of State Audit, issued reports dealing with
centralized statewide controls on the Departments of Personnel and Finance and Administration
covering fiscal years ending June 30, 1997, through June 30, 2000. We reviewed these reports
and followed up on all findings to determine whether they had been resolved prior to our review.
We determined that they had been resolved.

                                     Results of Audit
        Our review disclosed that, except for the issues identified below, the Agency’s
accounting system and related internal controls adequately and accurately accounted for grant
and license fee receipts and disbursements; the direct and indirect costs were accurately reported
and claimed; and the asset management system accurately identified and tracked personal and
real property with regard to acquisition, maintenance, control, and disposal except for the issues
relating to reporting of program and project activities and claiming of Federal Assistance grant
costs identified below. The State also had adequate legislation that assented to the provisions of
the Acts and prohibited the use of license fees for anything other than the administration of the
Agency.

   •   Costs of $515,956 (Federal share $386,967) were questioned because the costs were
       incurred outside of the project period ($206,426), not supported by appropriate
       documentation ($165,141), and incurred before the project period began ($144,389).




                                              2
   •   The Agency’s license certifications were incorrect resulting in an overstatement of
       39,000 hunting and 96,000 fishing license holders in fiscal year 2000, and 39,500 hunting
       and 87,800 fishing license holders in fiscal year 2001.

   •   The Agency did not always ensure that Federal Assistance funds were drawn down based
       on incurred expenses.

   •   The Agency was unable to account appropriately for employee retirement and Federal
       Insurance Contributions Act (FICA) deductions for selected employees in pay periods
       sampled. In addition, the Agency did not accurately allocate the cost of salaries, benefits,
       and longevity payments to Federal Assistance cost centers for the pay period ending
       November 15, 2000.

   • Improvements are needed in the Agency’s reporting of program income, indirect cost
       allocation, and asset management.

        The Agency responded to a draft of this report on October 30, 2003, addressing each of
the findings listed below. Based on the Agency’s responses, we modified the findings and
recommendations as necessary to clarify the issues and to incorporate any additional information
provided. We have included its responses after our recommendations to resolve each finding.
The FWS did not respond to the draft of this report.

A. Questioned Costs
        1. Out of Period Costs. Costs of $206,426 charged to Grants FWE-6-18 ($86,805) and
FWE-6-19 ($119,621) were questioned because they were incurred prior to the period covered
by the grant agreements (see Appendix 2 for a schedule of all out-of-period costs). Office of
Management and Budget Circular A-87, Attachment A, Section C.1.d states in part that to be
allowable under Federal awards, costs must conform to any limitations or exclusions set forth in
the Circular, Federal laws, and terms and conditions of the Federal award. The Code of Federal
Regulations (CFR) 43 CFR §12.63 (a) states that, “Where a funding period is specified, a grantee
may charge to the award only costs resulting from obligations of the funding period…” For
example:

        The Agency received two invoices from ENSAFE dated April 11, 2001, for $6,279, and
May 25, 2001 for $2,539 for professional services provided to the Environmental Services
Project (Project Number 7700) under Grant FWE-6-18 (which covered the period July 1, 2000,
through June 30, 2001). However, these fiscal year 2001 obligations were paid on April 12,
2002, and the costs claimed under Grant FWE-6-19 (which covered the period July 1, 2001,
through June 30, 2002).

        The Agency issued a sub-grant to the Roane County Government on October 17, 2000,
for $20,000 to construct two concrete boat ramps, one courtesy dock, and one weigh-in shelter
under the Boating Access Project (Project Number 6950). The Agency obligated funds for the
project in the State’s fiscal year 2000. The project period began on January 1, 2000, and was
expected to extend through June 30, 2001, but only fiscal year 2000 funds were obligated for the


                                              3
project. However, when the sub-grantee submitted its invoice on November 21, 2000, the
Agency paid the invoice and claimed the costs under Grant FWE-6-18, which was for fiscal year
2001, which had a July1, 2000, through June 30, 2001, period of performance.

Recommendation

       We recommend that the FWS, resolve the $206,426 (Federal share $154,819) in out of
period costs claimed on Grants FWE-6-18 and FWE-6-19.

Agency Response

       Agency officials concurred with the finding and requested that the questioned costs be
resolved by applying them to the overmatch for Grants FWE-6-18 and FWE-6-19.

Office of Inspector General Comments

       FWS should resolve the finding and implement the recommendation.

        2. Unsupported Costs. Costs of $165,141 charged to Grants FWE-6-18 ($18,845),
FWE-6-19 ($10,000), and V-5 ($136,296) were questioned because the Agency could not
provide the necessary documentation to support the costs claimed (see Appendix 3 for a schedule
of all unsupported costs). The Agency is required by 50 CFR § 80.19 to maintain current and
complete financial records in accordance with Office of Management and Budget Circular A-
102. The Agency did not produce documentation to support its claim for labor, materials, or
contracts. For example:

        The Agency claimed costs of $13,750 under Grant FWE-6-18 for the purchase of land for
Project Number 2490 (Duck River Wildlife Management Area Coordination). However, the
only documentation provided for the acquisition was an invoice dated March 15, 2002, which
stated “Land Purchase, Non-Wetland, Linda Weaver, Maury County…$13,750.” The Agency
should have supported this transaction with a deed, an appraisal, survey, and other
documentation to support the land acquisition.

       The Agency claimed costs of $10,000 under Grant FWE-6-19 for services provided by
Tennessee Technological University for the Aquatic Education Project. However, the
documentation provided by the Agency was for a state-funded research project. The Agency
was not able to provide proper documentation prior to the completion of fieldwork.

       The Agency claimed costs of $136,296 for labor ($24,220) and other direct costs
($112,076) under the Clean Vessel Program (Grant V-5) that were not supported by appropriate
documentation. Sub-grantees did not maintain time sheets to verify the hours claimed for its
employees and the hourly rate claimed was not the rate paid to employees. Sub-grantees claimed
hourly rates ranging from $20 to $40 per hour, but paid employees from $6.00 to $11.00 per
hour. In addition, in at least two cases, marina managers, who were the subgrantees, completed
work but were not paid anything for their work. Regarding other direct costs, these claims
represented procurement actions that were not completed in accordance with applicable State



                                             4
procurement regulations (such as documenting that competition was obtained or by providing an
invoice to show the unit price paid for sub-grantee provided materials) as required by 43 CFR
§ 12.60 (a).

Recommendation

       We recommend that the FWS resolve the $165,141 (Federal share $123,856) in
unsupported costs by requiring the Agency to provide appropriate support for the questioned
costs under Grants FWE-6-18, FWE-6-19, and V-5.

Agency Response

        The Agency stated that the $13,750 in costs for Grant FWE-6-18 were not for the
purchase of land but rather an outstanding interest (salvage rights) for a house on property owned
by the State. Since this was not a land acquisition, the real property acquisition rules do not
apply.

       The $10,000 costs claimed under Grant FWE-6-19 was for aquatic education type work
and payment was made from the Aquatic Education project. A copy of an invoice was provided.

        The Agency contends that the labor of the marina owners increased the value of the
businesses owned by them, which they accepted as payment. Field inspection confirmed that
work was completed and equipment was purchased, so not to allow payment due to lack of
documentation is an untenable position. Agency contends that each sub-grantee should be
credited with a reasonable value for the work performed and the equipment purchased.

Office of Inspector General Comments

      FWS should consider the Agency’s response, resolve the finding, and implement the
recommendation.

        3. Pre-award Costs. Costs totaling $144,389 charged to Grants F-76 ($100,000) and
F-77 ($44,389) were questioned because the costs were incurred prior to the award and effective
starting dates of the grants. Office of Management and Budget (OMB) Circular No. A-87,
Attachment B.32 states that, pre-award costs, “Are allowable only to the extent that they would
have been allowable if incurred after the date of the award and only with the written approval of
the awarding agency.” The Agency was not given written approval to incur costs prior to the
award of the grant, and the grant period of performance did not include the period covered by the
claimed costs.

       Grant F-76 was awarded to the Agency on April 20, 2001, for $100,000 (Federal share
$75,000). The grant period was designated as March 1, 2001, to December 31, 2001. The grant
agreement stipulated that the State match would be provided by the City of Chattanooga. The
agreement called for the City to renovate a boat ramp, parking lot, and access road at the existing
Rivermont Park. However, the first invoice, dated January 5, 2000, for $34,978, included
invoices from vendors that occurred from as early as February 10, 1996, to April 13, 1998. The



                                               5
second invoice from the City, dated July 24, 2000, for $40,022 (combined with the first invoice
totaled the Federal share of $75,000) included the invoice from the contractor, dated June 19,
2000, for $105,000 to complete the project. All of the claims submitted by the City represented
pre-award costs because they were incurred by the City of Chattanooga prior to the period of
performance of Grant F-76.

         Grant F-77 was awarded to the Agency on July 10, 2001, for $100,000 (Federal share
$75,000) to construct two boat ramps, courtesy docks, weigh-in shelters, and to pave the parking
lot at the existing boat ramp at Holly Park. The grant period was designated as February 15,
2001, to June 30, 2002. Amendment No. 1 extended the grant period until June 30, 2003. The
grant agreement stipulated that the City of Soddy-Daisy would provide the State share ($25,000).
The city’s first invoice was submitted on September 24, 2001, for $62,632. However, the
claimed costs included $29,455 for materials and supplies and $14,934 for labor costs that were
incurred from November 30, 2000, to February 15, 2001, which was before the effective date of
the grant agreement and the grant period of performance. The grant agreement did not contain
any provision that would have allowed costs that were incurred prior to the grant’s period of
performance.

Recommendation

       We recommend that the FWS resolve the $144,389 in questioned costs for Grants F-76
($100,000, Federal share $75,000) and F-77 ($44,389, Federal share $33,292).

Agency Response

       The Agency stated that although the work done by third parties was outside of the grant
periods, all Agency payments and reimbursements were made within the grant period. The
Agency provided schedules indicating the dates when grant periods began and ended and when
the Agency processed invoices, made payments and claimed reimbursement.

Office of Inspector General Comments

        Costs incurred prior to the effective date of the award are ineligible. FWS should resolve
the finding and implement the recommendation.

B. Additional Findings

        1. License Certification. The number of licenses reported was overstated in fiscal years
2000 and 2001 because the state did not use consistent numbers each year and because
duplication percentages (factors used to eliminate duplicate license holders in the annual license
certification counts) were not applied to the total license count.

       According to 50 CFR § 80.10 (c), license holders shall be counted over a period of 12
months. The calendar year, fiscal year, or other licensing period may be used, provided it is
consistent from year to year. The Agency did not use consistent license figures in the calculation
numbers submitted to FWS for fiscal years 2000 and 2001. Although the number of sales that



                                              6
were included in the Remote Easy Access License (REAL) System was used in all instances, the
totals differed when taken from different divisions within the Agency. The Agency official who
prepared the certifications used the figures from the Revenue Division to arrive at the total
number of licenses sold, but utilized the figures from the Management Systems Division (which
captures sales for a period up to five days different than the Revenue Division) to arrive at all the
other numbers necessary for certification (eliminations for duplicates and life expectancies). The
Revenue Division reconciled to the dollar amount in the Management Systems Division each
fiscal year, but sales were counted in the Revenue Division when the sales deposits were made.

        In addition, 50 CFR § 80.10 (c) (5) requires that individuals holding more than one
license to hunt or fish be counted no more than once and any duplications must be eliminated.
Sampling or other statistical techniques may be used for this purpose. The Agency used
duplication percentages to certify the actual number of license holders only for the sales of
temporary licenses, not for all licenses sold. Since the duplication percentages were based on
numbers maintained by the Management Systems Division instead of the Revenue Division, the
percentages used to calculate licenses were also inaccurate.

        Since the Management Systems Division is responsible for maintaining the official point-
of-sale numbers from the REAL System, we recalculated the certification figures by utilizing the
original figures from REAL, applying the duplication percentages to all of the licenses sold and
adding the lifetime licenses. In this way, we arrived at the number of licenses that should have
been reported to FWS. Based on our analysis, we found that the number of licenses reported was
overstated by 39,000 hunting and 96,000 fishing license holders in fiscal year 2000 and 39,500
hunting and 87,800 fishing license holders in fiscal year 2001.

Recommendations

       We recommend that the FWS:

       a. Require the Agency to use the same source of information covering the same 12-month
period when calculating the number of hunting and fishing licenses sold.

       b. Work with the Agency to establish a methodology that results in an accurate count of
unduplicated license holders.

Agency Response

        The Agency concurred with the finding and recommendation but disagreed with the
number of license holders cited by the auditors. The Agency recalculated the number of license
holders and documented 18,039 fewer anglers and 60,630 more hunters than originally certified
for fiscal year 2000. For fiscal year 2001, 70,769 additional anglers and 87,809 additional
hunters were documented. Schedules supporting these calculations were attached.




                                                7
Office of Inspector General Comments

        We reviewed the methodology the Agency used to recalculate the number of license
holders cited in its response. The Agency numbers were based on two REAL queries for Fishing
License Sales and two similar queries for Hunting License Sales (one with duplicates and one
without duplicates). In addition, for fiscal year 2000, the Agency included licenses sold during
the prior fiscal year which it contends should also have been counted.

        Our calculations were based on four REAL queries provided by the Agency for Total
Active Resident License Sales, Resident License Sales (no duplicates), Non-Resident License
Sales, and Non-Resident License Sales (no duplicates).

       FWS should work with the Agency to determine which methodology results in the most
accurate count of unduplicated license holders. Accordingly, we modified our Recommendation
B.1.b.

        2. Drawdowns. We found that all Federal Assistance drawdowns were made on a
reimbursable basis and for the most part, all amounts billed to the FWS were for actual costs
incurred by the Agency for the correct project. However, Agency made two drawdowns from
Federal Assistance that were not supported by actual costs incurred during the actual draw
periods amounting to $92,000. According to 50 CFR § 84.47 (a), allowable costs are limited to
costs necessary and reasonable to achieve approved grant objectives and meet the applicable
Federal cost principles in 43 CFR § 12.62 (b). Both draws came from the boater access portion
of the Comprehensive Grant (FWE-6-19). The expenditures were for a project that was
unrelated to the Federal Assistance grant. Accordingly, we questioned the $92,000 because they
were not supported by actual costs incurred and because they were for costs associated with a
boating access project that was not included in the scope of Grant FWE-6-19.

Recommendation

        We recommend that the FWS resolve the $92,000 in unsupported costs drawn down
against Grant FWE-6-19.

Agency Response

       Agency officials concurred with the finding and requested that the questioned costs be
resolved by applying them to the overmatch for Grant FWE-6-19.

Office of Inspector General Comments

       FWS should resolve the finding and implement the recommendation.

       3. Labor. The program used by the Agency to allocate personnel costs to Federal
Assistance cost centers was developed over ten years ago by an employee who has since retired.
The employee has been re-hired on a part time basis to manage the program, which identifies
hours worked by employee and then allocates salaries and benefits to Federal Assistance and



                                             8
state managed projects. However, we found that the dates for the program must be changed for
each pay period to accurately allocate fringe benefits, since different benefits are claimed for the
middle of the month (health insurance) and the end of the month (retirement); and if these dates
were not changed, the Agency’s salary claims would be inaccurate.

        According to 50 CFR § 80.19, the Agency is required to maintain current, accurate, and
complete financial records. For example, the program for allocation of personnel costs for
November 15, 2000, inappropriately retrieved the Agency payroll data file for the pay period
ending October 31, 2000, and since there was no one familiar with the program other than the
part time employee, the error was not corrected. As a result, the Agency did not accurately
allocate costs for salaries, benefits, and longevity payments to Federal Assistance cost centers for
the pay period ending November 15, 2000.

        We also found that the Agency was not able to support the amounts reported for
retirement or Federal Insurance Contributions Act (FICA) deductions for selected employees.
OMB Circular A-87, Attachment B.11(d)(2) states that the cost of fringe benefits is allowable if
they are equitably allocated to all related activities. However, the Agency was not able to
retrieve the appropriate payroll data file to support these fringe benefits from the State’s Payroll
Division before the end of fieldwork. As a result, amounts reported by the Agency for FICA and
retirement could not be verified.

Recommendations

       We recommend that FWS require the Agency to:

       a. Implement adequate internal controls to ensure that the amounts allocated to Federal
Assistance cost centers for salaries, longevity payments, and fringe benefits are accurate.

       b. Revise the methodology used to allocate these costs to the appropriate cost centers to
ensure that the allocation program captures all appropriate data.

Agency Response

       Agency officials concurred with the finding but did not propose any corrective action.

Office of Inspector General Comments

       FWS should resolve the finding and implement the recommendation.

        4. Program Income. The Agency reported program income from projects that were not
supported by Federal Assistance funds and program income for the wrong grant period. Program
income is defined in 43 CFR § 12.65 (b) as gross income received by the grantee directly
generated by a grant activity, or earned only as a result of the grant agreement during the grant
period.




                                               9
        Revenues collected in fiscal year 2001 for land leases held by sharecroppers were
included as program income under the Wildlife Restoration project (Grant FWE-6-18) although
the land tracts were not supported by Federal Assistance funds, nor was the income earned
because of the grant agreement. In addition, the Agency included revenue received in 2003 as
program income collected under the Wildlife Restoration project (FWE-6-19) in fiscal year 2002
and mistakenly included program income for a Sport Fish Restoration project that did not exist.
As a result, program income was overstated by $4,705 in fiscal year 2001 and $90,146 in fiscal
year 2002.

Recommendations

       We recommend that FWS require the Agency to:

      a. Review the Financial Status Reports submitted and correct the reporting errors for
program income.

       b. Institute procedures to prevent these errors from occurring in the future.

Agency Response

       The Agency stated that it submitted revised Financial Status Reports to the FWS on April
14, 2003, to reflect the correct program income information.

Office of Inspector General Comments

       The FWS should determine whether the errors were corrected on the revised Financial
Status Reports, resolve the finding, and implement the recommendations.

        5. Application of Incorrect Indirect Cost Rate. The indirect cost rates developed by
the Agency were not applied properly. According to 50 CFR § 80.19, the state must maintain
current and complete financial records. We found that the indirect cost rate on the Financial
Status Reports submitted to FWS for Grant FWE-6-18 for Sportfish Restoration and for Grants
FWE-6-18 and FWE-6-19 for boating access projects was the approved Wildlife Restoration
indirect cost rate. As a result, the drawdowns for FWE-6-18 and FWE-6-19 were less than the
amount eligible. If the Agency had applied the correct rate, it could have reported excess costs
of $145,467 and $810,063.

Recommendation

         We recommend that the FWS encourage the Agency to use the correct indirect cost rate
on its financial status reports.

Agency Response

       The Agency agreed that an error had been made in entering the indirect cost rate for Sport
Fish Restoration in Grant FWE-6-18 but indicated that resultant indirect costs were insignificant



                                              10
and did not affect reimbursements because the grant was overmatched. Indirect costs for boat
access in Grants FWE-6-18 and FWE-6-19 were calculated using the lowest rate, which did not
affect the Agency’s ability to draw down all funds from the grants.

Office of Inspector General Comments

       FWS should resolve the finding and implement the recommendation.

        6. Asset Management. The Agency’s Land Inventory and Realty Office did not include
the source of funds used to acquire land in an accurate and consistent manner. Fiscal controls
and accounting procedures are required by 43 CFR § 12.60(a)(2) to be sufficient to permit the
tracing of funds to a level of expenditures adequate to establish that such funds have not been
used in violation of the restrictions of applicable statutes. The land inventory for property
purchased with Federal Assistance funds was not accurate and complete. The Agency was not
able to adequately support the funding source for 113,941 acres (or 49.3 percent) of the 231,096
acres originally identified as acquired with Federal Assistance funds.

       In addition, the Agency did not comply with FWS instructions to include a statement in
the deed regarding the source of funds used to acquire the land tract at the Cheatham Wildlife
Management Area. When FWS approved the acquisition of the Cheatham tract, a statement
regarding the source of funds to purchase the tract was to be included in the title vesting
documents as required by State policy. The Agency did not include the statement regarding
Federal Assistance participation in the deed.

        The Agency was also unable to identify the specific source of funds used to purchase its
equipment, and grant numbers identified in the equipment listing could not be definitively
verified as being from a FWS grant. As a result, the inventory of equipment purchased with
Federal Assistance funds was not complete or accurate.

Recommendations

       We recommend that the FWS require the Agency to:

       a. Implement sufficient policies and procedures to verify and document the source of
funds used for the purchase of land to ensure compliance with Federal regulations.

       b. Add the required language to the deed for lands acquired with Federal Assistance
funds at the Cheatham Wildlife Management Area.

       c. Develop procedures to ensure that its equipment inventory is accurate and complete
and identifies all equipment purchased with Federal Assistance funds.

Agency Response

       The Agency indicated that the land inventory identified as acquired with Federal
Assistance provided to the auditors included all Federally funded land. The 49.3 percent of the



                                             11
land on the inventory addressed in the finding had been acquired under programs other than
Federal Assistance. The Agency stated that revisions were made to the deed for the Cheatham
WMA indicating the source of funding for the acquisition was Federal Assistance funds. The
Agency did not respond to the recommendation pertaining to the equipment inventory.

Office of Inspector General Comments

       FWS should verify that the land inventory and the deed revisions have been made and
resolve the finding and implement the recommendations.


        In accordance with the Departmental Manual (360 DM 5.3), please provide us with your
written response by April 9, 2004, to the recommendations included in this report. Your
response should include information on actions taken or planned, including target dates and titles
of officials responsible for implementation. If you have any questions regarding this report,
please contact me at (703) 487-5353.


cc:   Regional Director, Region 4
      U.S. Fish and Wildlife Service




                                              12
                                                                                    APPENDIX 1


           TENNESSEE WILDLIFE RESOURCES AGENCY
          FINANCIAL SUMMARY OF REVIEW COVERAGE


            Grant          Grant         Claimed          Questioned Costs
           Number         Amount          Costs         Total     Federal Share     Notes
         FWE-6-18       $13,502,818    $16,518,376     $105,650      $79,238          1,2
         FWE-6-19        14,293,336     18,249,995      129,621        97,216         1,2
         W-4-1              662,551        245,945
         W-5-1              956,550      1,073,987
         F-74                50,000                0
         F-75             4,885,070      3,224,074
         F-76               100,000        139,978      100,000        75,000         3
         F-77               100,000         62,632       44,389        33,292         3
         V-4                288,001        288,000
         V-5                248,000        248,000      136,296      102,222          2
         V-6                322,120                0
         V-7                517,598                0
               Totals   $35,926,044    $40,050,987     $515,956     $386,968

Notes:

1. Questioned costs pertain to out-of-period costs claimed on the Comprehensive Fish and
Wildlife Grant (see Questioned Costs, 1. Out of Period Costs). As identified here, the Agency
had sufficient excess claimed costs to offset these questioned costs. See Appendix 2 for details
on out-of-period costs.

2. Questioned costs pertain to costs claimed by the Agency for the Comprehensive grant that
were not supported by appropriate documentation (see Questioned Costs, 2. Unsupported
Costs). As identified here, the Agency had sufficient excess claimed costs to offset these costs.
The remaining unsupported costs are associated with the Clean Vessel Grant and they represent
unsupported salary and other direct cost claims. See Appendix 3 for details on unsupported
costs.

3. Questioned costs pertain to pre-award costs that were not approved by FWS (see Questioned
Costs, 3 Pre-award Costs).




                                              13
                                                                         APPENDIX 2



            TENNESSEE WILDLIFE RESOURCES AGENCY
               SCHEDULE OF OUT-OF-PERIOD COSTS
             FROM JULY 1, 2000 THROUGH JUNE 30, 2002


                             Project      Voucher          Year       Year
          Vendor             Number       Number         Obligated   Claimed Amount
Rutherford Farmers            1470            T4081        2000       2001    $49,950
Williams Restoration          6686            T6616        2000       2001     16,855
Tennessee Valley Authority    1440             473         2001       2002     10,000
Ensafe, Inc.                  7700            T5607        2001       2002      2,539
Ensafe, Inc.                  7700         T56508          2001       2002      6,279
Roane County                  6950            2928         2000       2001     20,000
City of Fayetteville          6950            2272         2001       2002     10,145
Sloan’s Honda                 2400            T2965        2001       2002      5,118
D & G Construction            1440            T5158        2001       2002     24,927
Riceland Machine              1440     T6663 and T6664     2001       2002     60,613
       Total                                                                 $206,426




                                         14
                                                         APPENDIX 3



    TENNESSEE WILDLIFE RESOURCES AGENCY
       SCHEDULE OF UNSUPPORTED COSTS
FOR THE PERIOD JULY 1, 2000 THROUGH JUNE 30, 2002


                                          Project
           Vendor          Grant Number   Number    Amount
    Ensafe, Inc             FWE-6-18       7700       $5,095
    Linda Weaver            FWE-6-18       2490       13,750
    Tennessee Tech          FWE-6-19       6553       10,000
    Sunset Marina              V-5         N/A        11,228
    International Harbor       V-5         N/A         3,750
    Mountain Lake              V-5         N/A        12,990
    Blue Springs               V-5         N/A        20,413
    Bay Side Marina            V-5         N/A        32,102
    Gold Point Marina          V-5         N/A        30,597
    Whitman Marina             V-5         N/A        17,936
    Hidden Harbor              V-5         N/A         5,600
    Swann’s Marina             V-5         N/A         1,680
             Total                                  $165,141




                               15
                                                           APPENDIX 4



TENNESSEE WILDLIFE RESOURCES AGENCY
            SITES VISITED

     AEDC Wildlife Management Area
     Normandy Fish Hatchery
     Old Hickory Wildlife Management Area
     Duck River Wildlife Management Area
     Catoosa Wildlife Management Area
     Reelfoot Wildlife Management Area
     Natchez Trace Wildlife Management Area
     Cheatham Wildlife Management Area
     Kentucky Lake/Barkley Lake Wildlife Management Area
     Chuck Swan Wildlife Management Area
     Erwin Fish Hatchery
     Buffalo Springs Fish Hatchery
     Sunset Marina and Resort, Dale Hollow Lake
     Hidden Harbor Marina, Center Hill Lake
     Swann’s Marina, Douglas Lake
     Mountain Lake Marina, Norris Lake




                           16
                             How to Report
                 Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone B Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:
              Mail:          U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240

              Phone:         24-Hour Toll Free                800-424-5081
                             Washington Metro Area            202-208-5300
                             Hearing Impaired (TTY)           202-208-2420
                             Fax                              202-208-6081

              Internet:      www.oig.doi.gov/hotline_form.html




                            U.S. Department of the Interior
                              Office of Inspector General
                                  1849 C Street, NW
                                Washington, DC 20240
                                        www.doi.gov
                                       www.oig.doi.gov
